la
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE EIGHT
CIRCUIT, FILED SEPTEMBER 9,2019
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2878
MARKTARGOWSKI,
Plaintiff-Appellant,
v.
SUPER 8 WORLDWIDE, INC., ORIGINALLY
NAMED AS SUPER 8 BATESVILLE, DOING
BUSINESS AS SUPER 8 BATESVILLE; LARRY
WOODS; INDEPENDENCE COUNTY, ARKANSAS,
Defendants,
ZACHARY LEE RAWLINS,
Defendant-Appellee,
JOHN DOES, 1-4, IN THEIR INDIVIDUAL AND
OFFICIAL CAPACITY; S&S HOSPITALITY 2, LLC,
Defendants.
September 3,2019, Submitted
September 9, 2019, Filed

3a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF ARKANSAS, BATESVILLE
DIVISION, FILED AUGUST 1, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF ARKANSAS
BATESVILLE DIVISION
1:16-CV-00148-BRW
MARK TARGOWSKI,

Plaintiff,
vs.
ZACHARY LEE RAWLINS,
Defendant.
VERDICT FORM
1. On Plaintiff Mark Targowski’s excessive force
claim against Defendant Zachary Lee Rawlins, we, the
Jury, find in favor of
Defendant
(write Plaintiff or Defendant above)
2. On Plaintiff Mark Targowski’s claim that Defendant
Zachary Lee Rawlins lacked arguable probable cause to
enter the room and arrest him, we, the Jury find in favor
of
Defendant
(write Plaintiff or Defendant above)

5a
Appendix B
IN THE UNITED. STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
BATESVILLE DIVISION
1:16CV00148-BRW
MARK TARGOWSKI,

Plaintiff,
vs.
ZACHARY LEE RAWLINS,
Defendant.
JUDGMENT ON JURY VERDICT
This action came on for trial July 31, 2018, before
the Court and a jury, the Honorable Billy Roy Wilson,
United States District Judge, presiding. At the conclusion
of the evidence, the issues having been duly tried, and
after deliberating thereon, the jury returned a verdict
on August 1,2018 in favor of the Defendant, Zachary Lee
Rawlins.
IT IS THEREFORE CONSIDERED, ORDERED
AND ADJUDGED that the plaintiff, Mark Targowski
take nothing on his complaint against the Defendant,
Zachary Lee Rawlins and this case is DISMISSED with
prejudice.

7a
APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF ARKANSAS, NORTHERN
DIVISION, FILED JUNE 21, 2018
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
NORTHERN DIVISION
l:16-cv-00148-BRW
MARK TARGOWSKI,

Plaintiff,
vs.
INDEPENDENCE COUNTY, et al.,
Defendants.
ORDER
Pending are Defendants’ (Independence County and
Deputy Rawlins) Motion for Summary Judgment (Doc. No.
67). Plaintiff has responded and both sides filed replies. i
Based on the findings of fact and conclusions of law below,
the Motion is GRANTED IN PART and DENIED IN
PART.

1. Doc. Nos. 74, 80, 81.

9a
Appendix C
Defendants Super 8 and Larry Woods were dismissed
on May 8,2017.
II. DISCUSSION
A. Malicious Prosecution
Plaintiff asserts that the state-court criminal charges
for disorderly conduct and communicating a false alarm
were resolved in his favor because the charges were
dismissed. However, according to the certified docket
sheet, the judge took the case under advisement for six
months, with the condition that if Plaintiff had no other
run-ins with the law, the charges would be dismissed.
Plaintiff was also ordered to pay $280, which he did. While
it’s true that the charges were dismissed, it was only
after Plaintiff paid a fine and had no more arrests for six
months. Accordingly, Plaintiff cannot establish that the
criminal proceeding was terminated in his favor,3 and the
malicious prosecution claim is DISMISSED.
B. Independence County, Arkansas
Plaintiff asserts that “Independence County, as an
employer of the individual Defendants, is responsible
3. Sundeen v. Kroger, 355 Ark. 138,142,133 S.W.3d 393,395
(2003) (“In order to establish a claim for malicious prosecution, a
plaintiff must prove the following five elements: (1) a proceeding
instituted or continued by the defendant against the plaintiff; (2)
termination of the proceeding in favor of the plaintiff; (3) absence
of probable cause for the proceeding; (4) malice on the part of the
defendant; and (5) damages.”).

11a
Appendix C
C. Official Capacity Claims
It is well-settled that “a suit against a government
officer in his official capacity is functionally equivalent to
a suit against the employing governmental entity.”8 For
the same reasons set forth above, the official capacity
claim is DISMISSED.
D. John Doe Defendants
Defendant’s Amended Complaint lists “John Does
1-4 in their individual and official capacity.” However,
none of these John Does was ever served or even named.
Additionally the discovery cut-off has passed and trial is
set to commence on Tuesday, July 31, 2018. Accordingly,
the John Doe Defendants are DISMISSED.
E. First Amendment Claim
The Amended Complaint is not specific regarding
Plaintiff’s First Amendment claim. It appears to me that
he is arguing that if he “direct[ed] verbal criticism and
profanity” at the officers, that is his right, and it would not
permit the deputies to enter the room. This argument and this case - is really based on the Fourth Amendment.
Accordingly, this claim is DISMISSED.

8. Veatch v. Bartels Lutheran Home, 627 F.3d 1254, 1257
(8th Cir. 2010).

13a
Appendix C
Deputy Rawlins asserts that he neither tackled nor cuffed
Plaintiff. Plaintiff claims that he did. However, Plaintiff
also testified that he “could not see [the officers’] faces.”
A jury has to weight the credibility of these statements.
Additionally, the jury must consider the extent of the force
used in light of the surrounding circumstances. If the jury
believes Plaintiff, “a reasonable officer would know that
the amount of force used in the incident was not reasonable
under the circumstances.”11
CONCLUSION
Based on the findings of fact and conclusions of law
above, Defendant’s Motion for Summary Judgment is
GRANTED IN PART andDENIED IN PART. Defendant
Independence County and the official capacity claims
against Deputy Rawlins are DISMISSED with prejudice.
The John Doe Defendants are DISMISSED without
prejudice.
Plaintiff may proceed with his individual capacity
claims against Deputy Rawlins.
IT IS SO ORDERED this 21st day of June, 2018.
/s/ Billy Rov Wilson_______________
UNITED STATES DISTRICT JUDGE

11. See Prosser v. Ross, 70 F.3d 1005, 1007 (8th Cir.1995)
(discussing qualified immunity).

